IN THE
SUPREME COURT OF THE UNITED STATES
No.
In re Lisa A. Biron,
Petitioner

Proof of Service
I, Lisa A. Biron, hereby declare, under penalty of perjury, that on
this date, as required by Supreme Court Rules 20 and 29, have served the
enclosed Motion for Leave to Proceed In Forma Pauperis and Petition for a
Writ of Mandamus on the
First Circuit Court of Appeals Panel
(Howard, Torruella & Kayatta)
United States Court of Appeals for
the First Circuit
One Courthouse Way
Boston, MA 02210-3011

RECEIVED
JUL 1 3 2021
OFFICE OF THE CLERK
SUPREMfc COURT, U.S.

Solicitor General of the United States
Department of Justice, Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
by depositing an envelope containing copies of said documents in the inmate
mail system, properly addressed, with firstclass postage prepaid.

T/-Z02/

Date

Lisa A. Biron

